No. _

_

_

A.P,

Petitioner,
-v.-

THE STATE OF VERMONT,

Respondent.

PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF WORD COUNT
Pursuant to Rule 33. l(h) of the Rules of this Court, I certify that the
accompanying Petition for a Writ of Certiorari, which was prepared using Century
Schoolbook 12-point typeface, contains 7,324 words, excluding the parts of the
document that are exempted by Rule 33.l(d). This certificate was prepared in
reliance on the word-count function of the word-processing system (Microsoft Word)
used to prepare the document.
Pursuant to 28 U.S.C. ยง 1746, I declare under penalty of perjury that the
foregoing is true and correct.
DATED this 8th day of March 2021.

Kevin Rogers, Esq.
COSTELLO, VALENTE & GENTRY, P.C.
51 Putney Road
Brattleboro, VT 05301
(802) 257-5533
rogers@cvglawoffice.com
Counsel for Petitioner

State of Vermont
County of Windham
Singed and sworn before me on March 8, 2021.
Christian Henning
Notary Public
State of Vermont
Commission No. 0000578
Commission expires 1/31/20~

Christian Henning
Notary Public

